No. 20-472

IN THE SUPREME COURT OF THE UNITED STATES
HOLLYFRONTIER CHEYENNE REFINING, LLC, HOLLYFRONTIER REFINING &
MARKETING, LLC, HOLLYFRONTIER WOODS CROSS REFINING, LLC, & WYNNEWOOD
REFINING CO., LLC,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.

UNOPPOSED MOTION FOR LEAVE TO DISPENSE WITH THE
REQUIREMENT OF A JOINT APPENDIX

Pursuant to Rules 21 and 26.8 of the Rules of this Court, Petitioners
HollyFrontier Cheyenne Refining, LLC, HollyFrontier Refining & Marketing, LLC,
HollyFrontier Woods Cross Refining, LLC, and Wynnewood Refining Co., LLC
respectfully move for leave to dispense with the requirement of a joint appendix in
the above-captioned case. Counsel for Respondents Renewable Fuels Association, et
al., and counsel for Respondent Environmental Protection Agency have authorized
undersigned counsel to state that they concur in this motion.
The question presented in this case is whether, in order to qualify for a
hardship exemption under § 7545(o)(9)(B)(i) of the Renewable Fuel Standards, a
small refinery needs to receive uninterrupted, continuous hardship exemptions for
every year since 2011. The appendix and the supplemental appendix to the petition

for a writ of certiorari include all of the lower court opinions, orders, and other
materials relevant to the question at issue. The parties do not believe that any other
portion of the record merits special attention that warrants the preparation and
expense of a joint appendix. Thus, a separate joint appendix would not materially
assist in the Court’s consideration of this case. For the foregoing reasons, the motion
to dispense with the requirement of a joint appendix should be granted.
Respectfully submitted,
/s/ Ryan C. Morris
February 11, 2021

RYAN C. MORRIS*
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
rmorris@sidley.com
* Counsel of Record for Petitioners

